U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                    August 3, 2007
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the eleventh since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from January 1, 2007, through
June 30, 2007.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.




       1  The OIG can investigate allegations of misconduct by any Department employee,
except for allegations of misconduct by attorneys (or investigators working under the direction
of Department attorneys) acting in their capacity to litigate, investigate, or provide legal advice.
See Pub. L. 107-273 § 308, 116 Stat. 1784 (Nov. 2, 2002).


Office of the Inspector General, U.S. Department of Justice                              Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters, a second who assists on FBI matters, and a third who provides
support on ATF cases. In addition, four Investigative Specialists support the
unit and divide their time between Section 1001 and FBI/DEA/ATF
responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an Investigative Specialist. After review, each complaint is entered
into an OIG database and a decision is made concerning its disposition. The
more serious civil rights and civil liberties allegations that relate to actions of
DOJ employees or DOJ contractors normally are assigned to an OIG
Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct. 3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs for handling. In certain referrals, the OIG requires the components to
report the results of their investigations to the OIG. In most cases, the OIG
notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the border patrol are sent to the
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs at the Department of State, Department of Defense,
and Department of the Treasury. In addition, we have referred complainants to
state Departments of Correction that have jurisdiction over the subject of the
complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation either by the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

     A. Complaints Processed This Reporting Period

       From January 1, 2007, through June 30, 2007, the period covered by
this report, the OIG processed 644 Section 1001-related complaints. 4

       Of these complaints, we concluded that 535 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Approximately 328 of
these 535 complaints involved allegations against agencies or entities outside
of the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. The remaining 207 of the 535 complaints raised allegations that,
on their face, did not warrant investigation. Complaints in this category
included, for example, allegations that FBI agents implanted a remote control
device in the complainant’s body, and a claim that FBI agents had tortured a
complainant for over 5 years causing kidney disorders and eye damage to the
complainant.

      The remaining 109 of the 644 total complaints involved DOJ employees
or components and included allegations that required further review. We
determined that 102 complaints raised management issues that generally were
not related to our Section 1001 duties, and we referred these complaints to
DOJ components for appropriate handling. Examples of complaints in this
category included inmates’ allegations about the general conditions at federal
prisons, and complaints that the FBI did not initiate an investigation into
particular allegations.

      One of the 109 complaints did not provide sufficient detail for us to make
a determination whether an allegation of civil rights or civil liberties-related

     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
abuse had occurred. We requested further information from this complainant
but did not receive a response.

      The OIG identified the 6 remaining complaints as matters that we
believed warranted an investigation to determine if Section 1001-related abuse
occurred. One of the matters is being investigated by the OIG, 4 of the matters
were referred to the BOP for investigation, and 1 was referred to the FBI for
investigation. We discuss the substance of these 6 complaints in the next
section of this report.

       None of the 644 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period:

      Complaints processed:                        644

      Unrelated complaints:                        535

      Total complaints within OIG’s
       jurisdiction warranting review:             109

         •   Management issues:                    102

         •   OIG unsuccessfully sought
             further information:                     1

         •   Possible Section 1001 matters
             warranting investigation:                6

    B. Section 1001 Cases This Reporting Period

      1. New matters

      During this reporting period, the OIG opened one new Section 1001
investigation. Additionally, the OIG referred four Section 1001-related
complaints to the BOP for investigation and one Section 1001-related
complaint to the FBI for investigation. For each of those referrals, we
requested that the BOP and the FBI provide the OIG with a copy of their
investigative reports upon completion of the investigations.

   The following is a summary of the new matter opened by the OIG this
reporting period:



Office of the Inspector General, U.S. Department of Justice           Page 5
         •   The OIG is investigating allegations that a BOP inmate was
             physically and verbally abused by correctional officers because he
             is Arab and Muslim. The complaint includes allegations that the
             inmate was placed in a cold cell with water on the floor, that his
             undergarments were confiscated and replaced with undergarments
             with holes, and that his legal documents were confiscated and
             “misplaced.”

The following four complaints were referred to the BOP for investigation:

         •   An inmate alleged that he has been subjected to continuous
             discrimination and verbal abuse by BOP employees because he is
             from Afghanistan.

         •   An inmate alleged that a comic strip depicting Muslims as
             terrorists was distributed inside a BOP facility by BOP staff.

         •   A Muslim inmate alleged that his civil rights were violated because
             BOP staff ordered him to remove his Kufi and ordered him not to
             pray in the prison library.

         •   A BOP employee, who is an Iraqi Muslim, alleged that he has been
             verbally harassed by BOP staff since the September 11, 2001,
             terrorist attacks.

The following complaint was referred to the FBI for investigation:

         •   The OIG received an allegation that FBI Special Agents
             unreasonably detained, harassed, intimidated, and searched an
             individual’s property because of that person’s religion, race, and
             ethnicity. After receiving this complaint, the FBI Inspection
             Division conducted a review of the FBI New Orleans Division’s
             actions in this matter. The FBI Inspection Division determined
             that the allegations were not substantiated. Their report was
             forwarded to the OIG for review and we concurred with those
             findings.

      2. Cases opened during previous reporting periods that the OIG
         continues to investigate

         •   The OIG is investigating allegations from a BOP inmate that
             correctional officers came into his cell in the Special Housing Unit
             during a routine movement of the inmate to another cell and
             referred to the complainant and his cellmate as “camel jack” and
             “Saddam Hussein.” The inmate further alleged that when he asked
             the correctional officers not to speak to him in that manner, they


Office of the Inspector General, U.S. Department of Justice              Page 6
             assaulted him. The complainant alleged that when he tried to file
             a complaint with the BOP, he was told that an investigation could
             take up to 6 months, during which time he would be placed in the
             general population where the word would get out that he was a
             snitch. The OIG investigation is ongoing.

      3. Investigations closed during this reporting period

         •   The OIG directed the BOP to investigate allegations that an inmate
             was unjustly placed in the Special Housing Unit for 25 days after
             he reported being harassed by another inmate. The inmate further
             alleged that he was “mentally tortured” because he is Muslim and
             his name is Mohammad. The BOP Office of Internal Affairs
             investigation did not substantiate the allegations.

         •   The OIG directed the BOP to investigate allegations that a BOP
             correctional officer verbally abused an inmate and called him a
             “terrorist.” The inmate also alleged that when this correctional
             officer was on duty, the inmate’s hot food was always served cold.
             The BOP Office of Internal Affairs investigation did not
             substantiate the allegations.

         •   The OIG directed the BOP to investigate allegations that a BOP
             employee, while in the presence of a Muslim inmate, said that he
             hated all Muslims. The complaint alleged further that a BOP food
             service employee intentionally wiped pork grease on a Muslim
             inmate’s food tray after the inmate complained about a rotten
             tomato. The BOP Office of Internal Affairs investigation did not
             substantiate the allegations.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has initiated or continued several
such special reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A. Review of the FBI’s Use of National Security Letters and Ex Parte
         Orders for Business Records

       On March 9, 2007, as required by the USA PATRIOT Improvement and
Reauthorization Act of 2005 (Public Law 109-177) (Patriot Reauthorization Act),
the OIG issued two reports that examined the FBI’s use of two authorities
established or amended by the Patriot Act:


Office of the Inspector General, U.S. Department of Justice            Page 7
      (1) the FBI’s authority to issue national security letters to obtain –
without a court order – certain categories of records from third parties,
including telephone toll billing records, electronic communication transactional
records, financial records, and credit information; and

      (2) the FBI’s authority to obtain business records from third parties by
applying for ex parte orders issued by the Foreign Intelligence Surveillance
Court pursuant to Section 215 of the Patriot Act.

       The Patriot Reauthorization Act directed the OIG to review the extent to
which the FBI has used these authorities; any bureaucratic impediments to
their use; how effective these authorities have been as investigative tools and in
generating intelligence products; how the FBI collects, retains, analyzes, and
disseminates information derived from these authorities; whether and how
often the FBI provided information derived from these authorities to law
enforcement officials for use in criminal proceedings; and whether there has
been any improper or illegal use of these authorities. See Sections 106A and
119 of Public Law 109-177.

      The OIG’s March 2007 reports examined the FBI’s use of national
security letters from 2003 through 2005, and Section 215 orders from 2002
through 2005. The OIG produced classified reports on the use of NSLs and
Section 215 authority and provided these classified reports to Congress. We
also produced and released publicly unclassified versions of these reports.

            1.     Report on the FBI’s Use of National Security Letters

      The OIG’s 126-page NSL report described the dramatic increase in the
use of NSLs since enactment of the Patriot Act in October 2001. The Patriot
Act broadened the FBI’s authority to use these letters by lowering the threshold
standard for issuance of NSLs; allowing FBI field office Special Agents in
Charge to approve issuance of NSLs; and permitting the FBI to use NSLs to
obtain full credit reports in international terrorism investigations. The OIG
found that in 2000, the last full year prior to passage of the Patriot Act, the FBI
issued approximately 8,500 NSL requests. After passage of the Patriot Act, the
number of NSL requests issued by the FBI increased dramatically:
approximately 39,000 issued in 2003; approximately 56,000 issued in 2004;
and approximately 47,000 issued in 2005. In total, during the 3-year period
covered by the OIG’s review, the FBI issued over 143,000 NSL requests.

       The OIG review also examined the effectiveness of national security
letters. NSLs have various uses, including developing evidence to support
applications for orders issued under the Foreign Intelligence Surveillance Act
(FISA); developing links between subjects of FBI investigations and other
individuals; providing leads and evidence to allow FBI agents to initiate


Office of the Inspector General, U.S. Department of Justice              Page 8
investigations or close investigations; and corroborating information obtained
by other investigative means. FBI personnel told the OIG that they consider
the NSL to be an indispensable investigative tool in conducting many
counterterrorism and counterintelligence investigations.

       As required by the Patriot Reauthorization Act, the OIG’s review
examined whether there were any improper or illegal uses of NSL authorities.
The OIG found that from 2003 through 2005 the FBI identified 26 possible
intelligence violations involving its use of NSLs, 19 of which the FBI reported to
the President’s Intelligence Oversight Board (IOB). The reported violations
involved the issuance of NSLs without proper authorization, improper requests
under the statutes cited in the NSLs, and unauthorized collection of telephone
or Internet e-mail transactional records. Of the 26 possible violations, 22 were
the result of FBI errors and 4 were caused by errors made by the entities to
which the NSLs were served.

       In addition to the possible intelligence violations reported by the FBI, the
OIG found evidence of many other possible unidentified and unreported
violations. In the OIG’s review of 77 FBI investigative files in four field offices,
the OIG determined that 17 of those files – 22 percent – contained one or more
possible violations relating to NSLs that were not identified by the field office or
reported to FBI Headquarters as required.

       The OIG also identified many instances in which the FBI improperly
obtained telephone toll billing records and subscriber information from 3
telephone companies pursuant to more than 700 so-called “exigent letters” that
were signed by personnel in the FBI’s Counterterrorism Division without first
issuing NSLs. We found that the FBI’s acquisition of this information
circumvented the requirements of the NSL statute, violated the Attorney
General’s Guidelines for FBI National Security Investigations and Foreign
Intelligence Collection (NSI Guidelines), and contravened internal FBI policy.

      This improper conduct was compounded by the fact that the FBI
sometimes issued “exigent letters” in non-emergency circumstances; failed to
ensure that there were duly authorized investigations to which the requests
could be tied; and failed to ensure that NSLs were issued promptly after the
“exigent letters” were sent. Moreover, the “exigent letters” inaccurately
represented that the FBI had already requested subpoenas for the information
when, in fact, it had not.

      The OIG’s review also determined that the FBI Headquarters
Counterterrorism Division generated over 300 NSLs from “control files” rather
than from “investigative files” in violation of FBI policy. When NSLs are issued
from “control files” rather than investigative files, case agents and supervisors
cannot determine whether the requests are tied to investigations for which the



Office of the Inspector General, U.S. Department of Justice               Page 9
factual predicate required by the NSL statute, the Attorney General’s NSI
Guidelines, and internal FBI policy has been established.

       The OIG made 10 recommendations to the FBI relating to its use of
national security letters, including: improving its database to ensure that it
captures timely, complete, and accurate data on NSLs; issuing additional
guidance to field offices that will assist in identifying possible intelligence
violations arising from the use of NSLs; and taking other steps to ensure that
the FBI uses NSLs in accordance with the requirements of national security
letter authorities, Attorney General Guidelines, and internal policies. The FBI
concurred with all of the OIG’s recommendations and agreed to implement
corrective actions.

       The Patriot Reauthorization Act also directed the OIG to review the FBI’s
use of national security letters in 2006. In this ongoing review, the OIG is
examining the areas addressed in its first report and, as directed by the Act,
determining whether NSLs issued after implementation of the Act included the
necessary certification to require recipients to comply with applicable
nondisclosure and confidentiality requirements. The OIG is also examining
steps the FBI has taken to implement the OIG’s 10 recommendations, as well
as other actions the FBI and DOJ have taken to improve compliance with NSL
authorities. Among the corrective actions undertaken by the FBI is the FBI’s
self-audit of 10 percent of all NSL-eligible investigations from 2003 through
2006 to determine whether violations of the national security letter authorities
or related Attorney General Guidelines or internal policies had occurred. The
OIG’s evaluation of the FBI’s 10 percent audit will be included in the OIG’s next
report, which is due in December 2007.

      In addition, the OIG and the FBI are working together in an OIG-led joint
investigation regarding accountability for the misuse of “exigent letters.” The
findings of that joint investigation will also be included in the OIG’s December
2007 report.

              2.   Report on the FBI’s Use of Section 215 Orders

      On March 9, 2007, as required by the Patriot Reauthorization Act, the
OIG also issued a report on the FBI’s use of Section 215 orders to obtain
business records. Section 215 of the Patriot Act allows the FBI to seek an
order from the Foreign Intelligence Surveillance Court to obtain “any tangible
thing,” including books, records, and other items from any business,
organization, or entity if the item is for an authorized investigation to protect
against international terrorism or clandestine intelligence activity.

       Section 215 did not create any new investigative authority but instead
significantly expanded existing authority by broadening the types of records
that can be obtained and lowering the evidentiary threshold to obtain an order.


Office of the Inspector General, U.S. Department of Justice              Page 10
Public concerns about the scope of this expanded authority centered on the
FBI’s ability to obtain library records. The OIG review found that the FBI did
not obtain a Section 215 order for any library records during the 2002 to 2005
period covered by our review.

       The review determined that from 2002 to 2005 the Department, on
behalf of the FBI, obtained a total of 21 “pure” Section 215 applications – that
is, requests for any tangible item that were not associated with any other FISA
authority. In addition, the Department obtained 141 “combination” Section
215 requests – that is, requests pursuant to Section 215 for subscriber
information that were added to a FISA application for pen register/trap and
trace orders.

       The OIG’s review did not identify any instance involving improper or
illegal use of “pure” Section 215 orders. We found no instance in which the
information obtained from a Section 215 order resulted in a major case
development, such as disruption of a terrorist plot. We also found that little of
the information obtained through Section 215 orders had been disseminated to
intelligence agencies outside the Department. However, FBI personnel said
they believe the kind of intelligence gathered from Section 215 orders was
essential to national security investigations, noting that the importance of such
information may not become known until later in an investigation, well after
the information was obtained, when, for example, it may be linked to another
piece of intelligence. FBI officials and Department attorneys also stated that
Section 215 authority has been useful because it is the only means of
compulsory process for certain kinds of records when other processes, such as
grand jury subpoenas or NSLs, would not be available or appropriate.

      The OIG review also found that the FBI had not used the Section 215
authority as effectively as it could have because of legal, bureaucratic, or other
impediments to obtaining these orders. For example, after passage of the
Patriot Act, neither the Department nor the FBI issued implementing
procedures or guidance on the expansion of Section 215 authority. In addition,
the OIG found significant delays within the FBI and the Department in
processing requests for Section 215 orders. Finally, we determined through
our interviews that FBI field offices did not fully understand Section 215 orders
or the process for obtaining them.

      As required by the Patriot Reauthorization Act, the OIG is continuing our
review of the FBI’s use of Section 215 orders in 2006 and will issue a report in
December 2007.




Office of the Inspector General, U.S. Department of Justice             Page 11
      B. Recommendations in the September 11 Detainee Report

       In June 2003, the OIG issued a report entitled, “The September 11
Detainees: A Review of the Treatment of Aliens Held on Immigration Charges
in Connection with the Investigation of the September 11 Attacks.” In that
report, the OIG examined the treatment of these detainees, including
circumstances surrounding their detention, their access to counsel, the timing
of their release from custody or removal from the United States, and their
conditions of confinement. Our report found significant problems in the way
the Department handled the September 11 detainees, and we made 21
recommendations related to issues under the jurisdiction of the FBI, the BOP,
and leadership offices at the DOJ, as well as immigration issues now under the
jurisdiction of the DHS.

       As of the beginning of this reporting period, 20 of the recommendations
have been resolved. The one open recommendation called for the Department
and the DHS to enter into a memorandum of understanding (MOU) to formalize
policies, responsibilities, and procedures for managing a national emergency
that involves alien detainees. After the OIG’s issuance of the initial report, the
DOJ and DHS agreed with the recommendation regarding the MOU and began
extended negotiations over language in the MOU.

      In July 2007, the DOJ provided to the OIG a copy of an MOU, signed by
the DHS and the FBI, that became effective on June 7, 2007, and which
addresses “The Handling of Administrative Cases Involving Aliens of National
Security Interest.” The OIG has reviewed the MOU, and we believe it addresses
our recommendation. We also believe that full implementation of the
procedures in the MOU in the event of a national emergency could prevent
many of the types of problems we uncovered in our review.

      C. Review of the Department’s Involvement with the National
         Security Agency’s Terrorist Surveillance Program or Warrantless
         Surveillance Program

      The OIG is reviewing the Department’s involvement with the National
Security Agency (NSA) program known as the “terrorist surveillance program”
or “warrantless surveillance program.” This ongoing review is examining the
Department’s controls and use of information related to the program and the
Department’s compliance with legal requirements governing the program.

      D. Review of FBI Conduct Relating to Detainees in Military
         Facilities in Guantanamo Bay and Iraq

      The OIG is completing its review of FBI employees’ observations and
actions regarding alleged abuse of detainees at Guantanamo Bay, Abu Ghraib
prison, and other venues controlled by the U.S. military. The OIG is examining


Office of the Inspector General, U.S. Department of Justice             Page 12
whether FBI employees participated in any incident of detainee abuse, whether
FBI employees witnessed incidents of abuse, whether FBI employees reported
any abuse, and how those reports were handled by the FBI.

       In this review, the OIG has interviewed detainees, FBI employees, and
military personnel at Guantanamo. In addition, the OIG has administered a
detailed questionnaire to more than 1,000 FBI employees who served
assignments at Guantanamo Bay, in Iraq, and in Afghanistan. The
questionnaire requested information on what the FBI employees observed,
whether they reported observations of concern, and how those reports were
handled. The OIG received over 900 responses to its questionnaire. The OIG
investigative team is in the process of drafting the report summarizing the
results of the investigation.

      E.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

       The OIG is continuing to review allegations that the FBI targeted
domestic advocacy groups for scrutiny based solely upon their exercise of
rights guaranteed under the First Amendment of the United States
Constitution. The review is examining allegations regarding the FBI’s
investigation, and the predication for any such investigation, of groups
including the Thomas Merton Center, Greenpeace, and People for the Ethical
Treatment of Animals (PETA). Our review of the domestic advocacy groups is
similar in focus to the OIG’s April 2006 review of the FBI’s investigation of
potential protesters at the 2004 Democratic and Republican National
Conventions.

V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,470,483 in
personnel costs, $4,931 in travel costs (for investigators to conduct interviews),
and $4,017 in miscellaneous costs, for a total of $1,479,431 to implement its
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.



Office of the Inspector General, U.S. Department of Justice             Page 13
